                     ADVISORY MEMORANDUM REPORT
                     CONSOLIDATION OF SBA’S SYSTEMS
                           SUBJECT TO FISMA

                          AUDIT REPORT NUMBER 5-19

                                    MAY 20, 2005




This report may contain proprietary information subject to the provisions of 18 USC
1905 and must not be released to the public or another agency without permission of the
Office of Inspector General.
                   U.S. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL
                           WASHINGTON, D.C. 20416


                                                      ADVISORY MEMORANDUM
                                                             REPORT
                                                  Issue Date: May 20, 2005
                                                  Number: 5-19


To:           Jerry E. Williams
              Acting Chief Information Officer

              /S/ Original Signed
From:         Robert G. Seabrooks
              Assistant Inspector General for Audit

Subject:      Consolidation of SBA’s Systems Subject to the Federal Information
              Security Management Act

        We have completed a review of SBA’s major Information Technology (IT)
systems that are subject to the Federal Information Security Management Act (FISMA).
Our overall objective was to determine if SBA could reduce its number of general
support systems and major applications to its internally recommended five systems and
still meet FISMA security requirements. We have concluded that SBA has 16 major
applications and four general support systems which meet criteria established by the
Office of Management and Budget (OMB) for FISMA reporting as major systems (See
Appendix A for a list of systems we conclude meet the definition of a general support
system or major application).

        SBA reviewed a draft of this report and generally concurred with the conclusions
in the report. SBA suggested changing two subsystems from the draft report.
Additionally, SBA suggested name changes to a number of its systems. SBA’s full
response is included as Attachment D to this report. All SBA suggested changes were
incorporated into the final report.

                                   BACKGROUND

       Since the inception of the Government Information Security Reform Act (GISRA)
in FY 2001 (the precursor of FISMA), the Office of Inspector General (OIG) has worked
with SBA management to correctly identify SBA’s general support systems and major
applications. In FY 2002, the OIG concluded that SBA could consolidate its major
system list from 95 systems to 37 systems (OIG Report 2-28). Additionally, OIG has
worked with SBA management to identify the correct number of systems which should
be subject to GISRA or FISMA requirements based upon OMB criteria. OIG has, in
previous audits, recommended the addition of NFC Payroll (OIG Report 3-20) as a major
application as well as the Sybase Servers (OIG Report 1-21) as a general support system.

        Recently, SBA undertook a project to reduce its major systems subject to FISMA
requirements. SBA’s preliminary results identified five mission critical systems subject
to both its Continuity of Operations Program (COOP) and FISMA. As a result, SBA was
proposing the declassification of approximately 34 systems subject to FISMA. SBA
decided on the five systems using criteria developed by the Department of Transportation
(DOT) evaluation of its major systems subject to COOP. SBA requested OIG’s
concurrence on the proposed reduction of the current list of 39 major IT systems to five.
Based upon this request, OIG conducted a review to determine an appropriate number of
SBA systems subject to FISMA.

                  OBJECTIVES, SCOPE AND METHODOLOGY

        The objective of this evaluation was to determine whether SBA could consolidate
its major system list based upon criteria from OMB Memorandum 04-25 “FY 2004
Reporting Instructions for the Federal Information Security Management Act” and OMB
Circular A-130 “Management of Federal Information Resources.”

   •   OMB Circular A-130 Appendix III provides that adequate security is defined as
       security which is commensurate with the risk and magnitude of the harm resulting
       from the loss, misuse, or unauthorized access to or modification of information.
       This includes assuring that systems and applications used by the agency operate
       effectively and provide appropriate confidentiality, integrity, and availability,
       through the use of cost-effective management, personnel, operational, and
       technical controls.

   •   OMB Circular A-130 Appendix III describes an information system as a discrete
       set of information resources organized for the collection, processing,
       maintenance, transmission, and dissemination of information, in accordance with
       defined procedures, whether automated or manual. Additionally, a major system
       is an application that requires special attention to security due to the risk and
       magnitude of the harm resulting from the loss, misuse, or unauthorized access to
       or modification of the information in the application.

   •   OMB Memorandum 04-25 provides that all major IT investments (those above
       $500,000 which have Capital Asset Plans and Business Cases) would be
       considered as "major" systems for FISMA purposes.

       We held interviews with SBA personnel, reviewed SBA system Certification and
Accreditation documentation and evaluated this information using existing criteria for
general support systems and major systems subject to FISMA. This evaluation occurred
during March and April 2005.




                                            2
                              EVALUATION RESULTS

        SBA can achieve economies of scale in consolidating its existing 39 systems
subject to FISMA reporting into 20 systems (Appendix A) without reducing the
underlying security of SBA information within any of those systems. Additionally, SBA
may be able to increase its security efforts in concentrating on the residual risks in the
remaining 20 systems (SBA plans to retire one system in December 2005 ultimately
reducing the number of major systems subject to FISMA to a total of 19). Currently,
SBA expends approximately $25,000 to recertify existing major SBA systems every three
years. SBA could potentially save approximately $158,333 every year or $475,000 every
three years in not performing Certifications and Accreditations (C&A) on systems which
are really subsystems and feeder systems or nonmajor IT systems. See Appendix A, for a
breakdown of recommended consolidations of systems and recommended potentially
new systems.

Finding 1: Consolidate Nine Existing Loan, Lending and Servicing Application
           Systems into the Loan Accounting System

        Nine current SBA systems can be consolidated into the current Loan Accounting
System/Loan Accounting Daily Update Cycle (LAS/LADUC). These nine systems can
be consolidated as they perform functions such as feeder systems, subsystems, or
reporting functions within current SBA systems. If this consolidation is performed
correctly, it can occur without any loss in meeting the underlying Federal security
requirements for the systems.

       The following nine SBA systems are identified for consolidation in to a
Consolidated LAS/LADUC (See Appendix B):
       • Credit Bureau Reporting – Reports on delinquent or charged-off SBA loans to
          credit bureau agencies.
       • Delinquent Loan Collection System – Tracks delinquent SBA loan payments.
       • Field Cashiering System – Accounts for funds collected at SBA field and
          servicing offices for debt servicing against SBA loan balances.
       • IRS 1099C System – Reports non-collectable debt from SBA borrowers as
          taxable income for IRS purposes.
       • General Ledger Only (GLO) – Transmits updates and keeps the Financial
          Reporting Information System (FRIS) and the Joint Accounting and
          Administrative Management System (JAAMS) synchronized with the Loan
          Accounting System.
       • Litigation & Liquidation Tracking System – Tracks collateral liquidation and
          loan liquidation activities.
       • Microloan Mainframe – A subsystem of the Loan Accounting System
          specifically for processing SBA Microloans.
       • Preauthorized Debit – Allows borrowers to automatically make SBA loan
          payments from their bank accounts.
       • Treasury Offset System – Allows IRS Tax Refunds to be seized and paid on
          SBA delinquent or written-off loans.


                                            3
        SBA could save approximately $225,000 years by consolidating from 10 systems
to one system. Currently SBA expends $250,000 every three years to certify and accredit
10 systems for performing C&A reviews. With the consolidation of the separate
LAS/LADUC application systems into an overall LAS/LADUC major application
system, SBA should be in a better position to manage its IT security funds spent
performing C&A reviews and achieve economies of scale in performing one overarching
C&A on the LAS/LADUC system.

Recommendations: We recommend that the Chief Information Officer in conjunction
with the owners of the Loan Accounting System / Loan Accounting Daily Update Cycle:

1A.    Consolidate within the Loan Accounting System / Loan Accounting Daily Update
       Cycle the following identified SBA major systems:
          • Credit Bureau Reporting,
          • Delinquent Loan Collection System,
          • Field Cashiering System
          • General Ledger Only
          • IRS 1099C System,
          • Loan Litigation & Liquidation Tracking System,
          • Microloan Mainframe,
          • Preauthorized Debit System, and
          • Treasury Offset System.

1B.    Carry forward all individual risks in SBA’s Plan of Actions and Milestones
       (POA&M) for the Loan Accounting System to include the recommended
       consolidated systems in recommendation 1A.

SBA Response:

1A:    OCIO partially agrees with the recommendation. The OCIO believes that General
       Ledger Only (GLO) should be rolled up under LAS/LADUC.

1B:    Agree.

OIG Comment:

       We modified the report to reflect that GLO is included in the LAS/LADUC
consolidated system.

Finding 2: Consolidate Five Existing Financial Application Systems into a new
           Denver Finance Center Application System

       Five current SBA systems utilized by the Office of Chief Financial Officer
(OCFO) as part of its Office of Financial Systems (OFS) located in Denver, Colorado can
be consolidated into a new Denver Finance Center System (DFCS) major application.
These five systems can be consolidated as they perform functions such as feeder systems,


                                           4
subsystems, or reporting functions which allow for complete and accurate financial
reporting of financial operations at SBA. If this consolidation is performed correctly, it
can occur without any loss in meeting the underlying Federal security requirements for
the systems.

       The following five SBA systems are identified (See Appendix C):
       • Cash Reconciliation System – Reconciles different transactions and reports
          from Treasury. While the system is stand-alone, it is part of DFC’s systems
          which support SBA’s financial statements.
       • OFS Automated Distributed Event Processing System – A feeder system to
          the Loan Accounting System which uploads and downloads transactions from
          and to Client/Server sub-applications at the Denver Finance Center.
       • OFS Disbursement System – An interface system which consolidates
          disbursements from other SBA major systems and transmits a payment tape to
          the Treasury Department for subsequent cash disbursements.
       • OFS Loan Accounting System – An accounting transaction system to
          reconcile and balance financial information from other SBA systems to the
          Loan Accounting System.
       • OFS Print 1201 System – An output file with loan and account billing
          information which is transmitted to a contractor for printing for of bills owed
          to SBA.

        SBA could save approximately $75,000 by consolidating from five systems to
two systems (one application system and one general support system as discussed in
Finding #3). Currently SBA expends $125,000 to certify and accredit five systems for
performing C&A reviews. With the consolidation of the separate OFS application
systems into an overall DFCS major application system, SBA should be in a better
position to manage its IT security funds spent performing C&A reviews and achieve
economies of scale in performing one overarching C&A on the DFCS application system.

Recommendations: We recommend that the Chief Information Officer in conjunction
with the Chief Financial Officer:

2A.    Consolidate into a new Denver Finance Center System (DFCS) the following
       SBA identified major systems:
          • Cash Reconciliation System
          • OFS Automated Disbursement Event Processing System
          • OFS Disbursement System
          • OFS Loan Accounting System
          • OFS Print 1201 System

2B.    Carry forward all individual risks in SBA’s Agency Plan of Actions and
       Milestones into the new DFCS for the consolidated systems identified in
       recommendation 2A.




                                             5
SBA Comment:

2A:    Agree

2B:    Agree

Finding 3: Certify and Accredit a new Denver Office of Financial Systems Data
           Service System

       Currently the OCFO Denver Finance Center maintains and operates a number of
event processors, file servers, snap servers, and web servers which are certified and
accredited as part of SBA’s Local Area Network/Wide Area Network (LAN/WAN)
system accreditation. However, these systems are locally managed and operated and
support a departmental data center (OFS). Therefore, we conclude that these systems
should be under separate accreditation as a general support system.

        OMB Circular A-130 defines a General Support System as an interconnected set
of information resources under the same direct management control which shares
common functionality. A system normally includes hardware, software, information,
data, applications, communications, and people. A system can be, for example, a local
area network (LAN) including smart terminals that support a branch office, an agency-
wide backbone, a communications network, a departmental data processing center
including its operating system and utilities, a tactical radio network, or a shared
information processing service organization.

Recommendations:

3A.    We recommend that the Chief Information Officer, in conjunction with the Chief
       Financial Officer designate the computerized hardware, firmware and software
       supporting the Denver Office of Finance Services Data Service System as a
       general support system. Additionally, carry forward those individual risks
       relating to the Denver OFS hardware, firmware and software which are reported
       in the existing OFS Infrastructure C&A.

SBA Response:

3A:    Partially Agree. The name will be changed to Denver OFS Data Service System
       and it will be included as a new GSS in the September FISMA report. A new
       C&A will be conducted for this GSS by the end of 4th quarter. The platform
       vulnerabilities from the Denver Finance Center Major Application, including the
       OFS Infrastructure (ADEPS), will be addressed and revalidated in the new C&A
       of the Denver Finance Center System.

OIG Comment:

       We modified the report to reflect the recommended name as requested by SBA.



                                           6
Finding 4: Consolidate Two Major Systems into Two Other Major Systems

        Currently, there are four major systems, of which two major systems can be
consolidated into the C&A’s of two remaining systems. If this consolidation is
performed correctly, it can occur without any loss in meeting the underlying Federal
security requirements for the systems. The two systems are:

        Financial Institution Record System (FIRS) – A data base that contains
information on all types of financial institutions which participate in SBA lending
programs. FIRS can be consolidated with the Partner Identification and Management
System (PIMS). PIMS is a web-based system designed to replace FIRS when SBA
migrates off its legacy mainframe. At the present time, both systems interface with each
other to maintain information on financial institutions.

        Internet Connectivity Infrastructure (ICI) – Internet Connectivity Infrastructure
and SBA’s Local Area Network and Wide Area (LAN/WAN) are really different aspects
of the same general support system. According to their C&A’s:

      •   ICI is the supporting infrastructure of servers, firewalls, routers and servers
          including the public access server which allows the public to access SBA web
          pages and also SBA personnel to utilize the internet.
      •   LAN/WAN is the system and infrastructure which allows SBA employees to have
          networked computers, printers, email, and access to SBA’s major applications.

        Currently, SBA can expect to save about $50,000 every three years (two systems
at $25,000) to recertify the separate systems identified above which can be consolidated
into one general support systems LAN/WAN and one major application PIMS/FIRS.

Recommendations: We recommend that the Chief Information Officer:

4A.       In conjunction with the Office of Financial Assistance, consolidate the Financial
          Institution Record System into the Partner Information and Management System
          (PIMS).

4B.       Consolidate the Internet Connectivity Infrastructure (ICI) with the Local Area
          Network/Wide Area Network (LAN/WAN) for C&A purposes.

4C.       Carry forward all individual risks in SBA’s Agency Plan of Actions and
          Milestones into the new PIMS/FRIS, and LAN/WAN respectively for the
          recommendations 4A and 4B.

SBA Response:

4A:       Agree.




                                               7
4B:    The Chief Financial Officer (CFO) agrees with the consolidation of systems as
       defined in Finding 4, with one exception. The CFO believes that the GLO system
       should be consolidated in with the LADUC system, not the FRIS system. The
       GLO system feeds LADUC (LAGD02), not FRIS, and does not serve any purpose
       in the administrative accounting system. As such, it is just another system,
       maintained by the OCIO that feeds LAS. Furthermore, including GLO in with the
       FRIS will introduce a number of vulnerabilities which OFS Denver cannot
       address, since they do not maintain or "own" this system. Future enhancements to
       FRIS may include GLO functionality, however, until that happens, the CFO
       feels that it should most appropriately be grouped with LADUC.

4C:    Agree. The Local Area Network, Wide Area Network, and Internet Connectivity
       Infrastructure (LAN/WAN/ICI) would be shortened to "Local Area Network and
       Wide Area Network (LAN/WAN).

4D:    Partially agree. GLO risks will carry forward to the new LADUC.

OIG Comment:

      We modified the report to reflect that GLO be included within LADUC instead of
combining it with FRIS. Additionally, we modified the report and dropped ICI from
LAN/WAN.

Finding 5: Alter the Boundaries of the Sybase General Support System and
           Identify it as Headquarters Data Services System

        Currently SBA’s Sybase General Support System is the underlying infrastructure
of application services for a number of client-server applications operated by the
Washington based Headquarters Data Services system (HQDS). Some of these client-
server applications are stand-alone and some of these applications interface with the
legacy mainframe on a daily basis. Without these services, SBA’s Loan Accounting
System could not fully operate as it is a hybrid system of client-server and mainframe
capabilities.

        SBA identified that the current name and boundaries of the Sybase C&A does not
fully represent the full functionality performed and the future architecture of the general
support system which will support the HQDS system. SBA further identified that
currently there are a number of DBMS systems along with Sybase and that SBA is
migrating to Oracle as the agency-wide DBMS. Finally, SBA is migrating to a Java
Platform Enterprise Environment (J2EE) for application services.

       This would include:
       • UNIX Solaris operating system,
       • Webservers for webpages,
       • Application servers for housing application business logic, and
       • Database servers for data storage.



                                             8
       To correctly and completely identify the underlying general support system which
maintains application functions performed at the HQDS, SBA suggested an overall
boundary of IT functions for application services in one C&A renamed as the
Headquarters Data Services system.

Recommendations: We recommend that the Chief Information Officer:

5A.    Alter the boundaries of the Sybase general support system to include all
       application support capabilities for client-server applications performed at the
       Washington Headquarters Data Center and rename the general support system as
       the Headquarters Data Services system.

5B.    Carry forward all individual risks in the Sybase servers C&A to SBA’s Agency
       Plan of Actions and Milestones into the new WDC Application Services general
       support system C&A.

5C.    Perform a new C&A on the WDC Application Services general support system as
       the underlying application services are changed as per NIST 800-37.

SBA Response:

5A:    Partially agree. For the June FISMA report, the Sybase System will be retained as
       a GSS. For the September FISMA report, the new Washington Data Center
       (WDC) Application Services System GSS will be introduced. This new system
       will encompass the current Sybase data servers as well as the web servers and
       application servers used to access the Sybase data servers. The scope will include
       the web servers currently accredited as part of the ICI.

5B:    Partially agree. The Washington Data Center Applications Services Systems
       would be changed to the "Headquarters Data Services (HQDS)" system. The
       Sybase GSS vulnerabilities will be addressed and revalidated in the C&A of the
       new HQDS Application Servers GSS. The vulnerabilities associated with the ICI
       web servers will be addressed and revalidated in the C&A of the WDC
       Applications Services GSS.

5C:    Agree. A new C&A will be conducted for the WDC Application Services GSS in
       accordance with NIST Special Publication 800-37 guidance.

OIG Comment:

       We have modified the report to reflect to reflect the recommended name as
requested by SBA.




                                           9
Finding 6: Decertify Five Existing Systems which do not meet the Definition of
           Major Systems

        Five current SBA systems identified as major systems can be decertified as these
systems do not meet the definition of a major system. While the information in these
systems is vital to different offices within SBA in allowing those offices to perform their
duties, the information within those systems do not meet the definitions of a major
system from an Agency prospective and should therefore be classified as a nonmajor
system.

       OMB Circular A-11, Section 300, identifies a major IT investment as a system or
investment that requires special management attention because of its importance to an
agency’s mission; investment was a major investment in the FY 2004 submission and is
continuing; investment is for financial management and spends more than $500,000.
Systems not considered "major" are "nonmajor."

        During interviews with SBA personnel and from reviewing system
documentation, we identified five systems which could be decertified and therefore,
identified as nonmajor systems. These five systems are:

   •   Fresno Action Trek – A loan inventory system used to track SBA loan servicing
       actions.
   •   Preferred Loan Processing – Provides facsimile support for loan applications
       received from lenders requesting SBA guarantee of small business loans.
   •   Dynamic Small Business Search (ProNet) – Initially a small business search data
       base and engine, ProNet was combined with a Department of Defense system to
       allow for one integrated search of small business contractors.
   •   Guaranty Loan Reporting System – Previously reported on the status of SBA-
       1502 reports received from Colson Fiscal Transfer Agent. The system currently
       does not exist.
   •   Sacramento LowDoc – A spreadsheet program which tracks the receipt of
       facsimiles of loan applications received from SBA sponsored financial
       institutions.

        Currently, SBA can expect to save about $125,000 every three years (five systems
at $25,000) by identifying these systems as nonmajor and by not performing a full-scale
C&A on these systems. SBA will be able to utilize the $125,000 in better securing those
systems which meet FISMA criteria as general support systems or major applications.




                                            10
Recommendations: We recommend that the Chief Information Officer:

6A.    In conjunction with the Office of Financial Assistance, declassify the following
       non-major IT systems: Fresno Action Trek, Preferred Loan Processing, Guaranty
       Loan Reporting System and Sacramento LowDoc.

6B.    In conjunction with the Office of Government Contracting and Business
       Development, declassify Pro-Net as it is a non-major IT system.

SBA Response:

6A:    Agree.

6B:    Partially agree. TechNet should be a major application per the System Owner.

Please note: LLMS is the system name per the System Owner, not Expert Behavior.

OIG Comment:

         We modified the report to include TechNet as a major system. TechNet was
initially identified as a non-major IT system in the draft report. We also modified the
name of the Loan Lender Monitoring System in Appendix A.

                                          ***
       The findings included in this report are the conclusions of the Auditing Division
based upon the auditors’ review of SBA’s general support systems and major
applications. The findings and recommendations are subject to review and
implementation of corrective action by your office following the existing Agency
procedures for audit follow-up and resolution.

       This report may contain proprietary information subject to the provisions of 18
USC 1905. Do not release to the public or another agency without permission of the
Office of Inspector General.

       Should you or your staff have any questions, please contact Jeffrey R. Brindle,
Director, Information Technology and Financial Management Group, at
(202) 205-[FOIA Ex. 2].

Attachments




                                            11
                                                                ATTACHMENT A

     LIST OF MAJOR SYSTEMS WHICH MEET FISMA CRITERIA AS
     GENERAL SUPPORT SYSTEMS OR MAJOR APPLICATIONS

System                           Owner   General Support Major Application
                                         System
DENVER OFS Data Service          OCFO                  1
System
Eagan Mainframe                  OCIO                 1
LAN/WAN                          OCIO                 1
Headquarters Data Services –     OCIO                 1
HQDS (Formerly Sybase
Servers)
8a SDM MIS                       GCBD                                        1
ALCS                             ODA                                         1
Consolidated LAS/LADUC           COO                                         1
Contract Loan Servicing          OFA                                         1
(Formerly Colson)
DCMS                             ODA                                         1
Denver Finance Center Sys        OCFO                                        1
E-Tran (Formerly ELOS)           OFA                                         1
Loan Lender Monitoring System    OLO                                         1
(LLMS)
Financial Reporting Info Sys     OCFO                                        1
(FRIS)
HUBZone Application System       Hubzn                                       1
JA2MS                            OCFO                                        1
MPERS (Formerly Microloan        OFA                                         1
Data Entry)
Partner Identification Mgt Sys   OFA                                          1
SBA Payroll/Personnel System     OHCM                                         1
(NFC)
Surety Bond Guarentee (SBG)      OSG                                          1
TechNet                          GCBD                                         1

Total General Support Systems                         4                      16
and Major Applications
                                                       ATTACHMENT B


     LIST OF CURRENT MAJOR SYSTEMS WHICH CAN BE
     CONSOLIDATED INTO THE LOAN ACCOUNTING SYSTEM
     (Finding #1)

System                       Owner Major Application

Consolidated LAS/LADUC       COO                   1
Credit Bureau Reporting      OFA
(CBR)
Delinquent Loan Collection   OFA
(DLC)
Field Cashiering System      OCFO
General Ledger Only          OCFO
IRS 1099C Reporting (IRS)    OFA

Litigation & Liquidation     OFA
Tracking Sys (LLTS)

Microloan-Mainframe          OFA
(MM)

Pre-Authorized Debit         OCFO
System (PADS)

Treasury Offset (TO)         OFA
                                                     ATTACHMENT C


    LIST OF CURRENT MAJOR SYSTEMS WHICH CAN BE
    CONSOLIDATED INTO A NEW DENVER FINANCE CENTER
    SYSTEM (Finding #2)

System                     Owner Major Application

Denver Finance Center      OCFO                  1
System
Cash Reconciliation        OCFO
System (CRS)
OFS Disbursement (OFS      OCFO
Dis)
OFS Infrastructure (OFS    OCFO
Infa)

OFS LA Accounting          OCFO

OFS Print 1201 (OFS Pri)   OCFO
                                                                   ATTACHMENT D
                         U.S. Small Business Administration
                                 Washington, D.C.

                                     May 12, 2005



To:     Robert G. Seabrooks
        Assistant Inspector General for Auditing

        /S/ Original Signed
From:   Jerry E. Williams
        Acting Chief Information Officer

Subject: Response to Consolidation of Small Business Administration's Systems (SBA)
         Subject to the Federal Information Management Act

Thank you for the opportunity to review and provide comments to the draft memorandum
advisory report on Consolidation of SBA's Systems Subject to the Federal Information
Security Management Act of April 14, 2005.

The Office of the Chief Information Officer met with SBA system owners to discuss and
reach a consensus on your consolidation recommendations. The attachment contains the
results of the discussions and identifies the actions the OCIO plans to take.

Should you or your staff have any questions about the attached comments, please contact
Ethel M. Matthews, Chief Information Security Officer at (202) 205-[FOIA Ex. 2].

Attachment

cc:
Jennifer Main
Peter McClintock
Stephen Kucharski
James VanWert
                                                                   ATTACHMENT D
OCIO Response:

1A: OCIO partially agrees with the recommendation. The OCIO believes that General
Ledger Only (GLO) should be rolled up under LAS/LADUC.

1B:    Agree.

2A:    Agree

2B:    Agree

3A: Partially Agree. The name will be changed to Denver OFS Data Service System
and it will be included as a new GSS in the September FISMA report. A new C&A will
be conducted for this GSS by the end of 4th quarter. The platform vulnerabilities from
the Denver Finance Center Major Application, including the OFS Infrastructure
(ADEPS), will be addressed and revalidated in the new C&A of the Denver Finance
Center System.

OCIO / OCFO Response:

4A:    Agree.

4B:    The Chief Financial Officer (CFO) agrees with the consolidation of systems as
defined in Finding 4, with one exception. The CFO believes that the GLO system should
be consolidated in with the LADUC system, not the FRIS system. The GLO system
feeds LADUC (LAGD02), not FRIS, and does not serve any purpose in the
administrative accounting system. As such, it is just another system, maintained by the
OCIO that feeds LAS. Furthermore, including GLO in with the FRIS will introduce a
number of vulnerabilities which OFS Denver cannot address, since they do not maintain
or "own" this system. Future enhancements to FRIS may include GLO functionality,
however, until that happens, the CFO feels that it should most appropriately be grouped
with LADUC.

4C: Agree. The Local Area Network, Wide Area Network, and Internet Connectivity
Infrastructure (LAN/WAN/ICI) would be shortened to "Local Area Network and Wide
Area Network (LAN/WAN).

4D:    Partially agree. GLO risks will carry forward to the new LADUC.




                                           2
                                                                     ATTACHMENT D

OCIO Response:

5A: Partially agree. For the June FISMA report, the Sybase System will be retained as
a GSS. For the September FISMA report, the new Washington Data Center (WDC)
Application Services System GSS will be introduced. This new system will encompass
the current Sybase data servers as well as the web servers and application servers used to
access the Sybase data servers. The scope will include the web servers currently
accredited as part of the ICI.

5B:    Partially agree. The Washington Data Center Applications Services Systems
would be changed to the "Headquarters Data Services (HQDS)" system. The Sybase GSS
vulnerabilities will be addressed and revalidated in the C&A of the new HQDS
Application Servers GSS. The vulnerabilities associated with the ICI web servers will be
addressed and revalidated in the C&A of the WDC Applications Services GSS.

5C: Agree. A new C&A will be conducted for the WDC Application Services GSS in
accordance with NIST Special Publication 800-37 guidance.

6A:    Agree.

6B:    Partially agree. TechNet should be a major application per the System Owner.

Please note: LLMS is the system name per the System Owner, not Expert Behavior.




                                            3
                                                                                                    ATTACHMENT E



                                         REPORT DISTRIBUTION


Recipient                                                                                                 No. of Copies

Office of the Chief Financial Officer
Attention: Jeffrey Brown ........................................................................................1

General Counsel.......................................................................................................3

U.S. Government Accountability Office .................................................................1
